                                                  81556                Federal Register / Vol. 75, No. 248 / Tuesday, December 28, 2010 / Proposed Rules

                                                  ACTION:   Proposed rule.                                0857. EPA’s policy is that all comments               FOR FURTHER INFORMATION CONTACT:
                                                                                                          received will be included in the public               Irene Shandruk, (215) 814–2166, or by
                                                  SUMMARY:    EPA proposes to approve the                 docket without change, and may be                     e-mail at shandruk.irene@epa.gov.
                                                  State Implementation Plan (SIP)                         made available online at http://                      SUPPLEMENTARY INFORMATION: For
                                                  revision submitted by the                               www.regulations.gov, including any
                                                  Commonwealth of Pennsylvania. This                                                                            further information, please see the
                                                                                                          personal information provided, unless                 information provided in the direct final
                                                  SIP revision includes amendments to                     the comment includes information
                                                  the Allegheny County Health                                                                                   action, with the same title, ‘‘Approval
                                                                                                          claimed to be Confidential Business                   and Promulgation of Air Quality
                                                  Department (ACHD) Rules and                             Information (CBI) or other information
                                                  Regulations, Article XXI, Air Pollution                                                                       Implementation Plans; Pennsylvania;
                                                                                                          whose disclosure is restricted by statute.            Allegheny County’s Adoption of Control
                                                  Control, and meets the requirement to                   Do not submit information that you
                                                  adopt Reasonably Available Control                                                                            Techniques Guidelines for Large
                                                                                                          consider to be CBI or otherwise                       Appliance and Metal Furniture; Flat
                                                  Technology (RACT) for sources covered
                                                                                                          protected through http://                             Wood Paneling; Paper, Film, and Foil
                                                  by EPA’s Control Techniques
                                                                                                          www.regulations.gov or e-mail. The                    Surface Coating Processes; and
                                                  Guidelines (CTG) standards for the
                                                                                                          http://www.regulations.gov Web site is                Revisions to Definitions and an Existing
                                                  following categories: Large appliance
                                                                                                          an ‘‘anonymous access’’ system, which                 Regulation,’’ that is located in the ‘‘Rules
                                                  and metal furniture; flat wood paneling;
                                                                                                          means EPA will not know your identity                 and Regulations’’ section of this Federal
                                                  and paper, film, and foil surface coating
                                                                                                          or contact information unless you                     Register publication. Please note that if
                                                  processes. In the Final Rules section of
                                                                                                          provide it in the body of your comment.               EPA receives adverse comment on an
                                                  this Federal Register, EPA is approving
                                                                                                          If you send an e-mail comment directly                amendment, paragraph, or section of
                                                  the Commonwealth’s SIP submittal as a
                                                  direct final rule without prior proposal                to EPA without going through http://                  this rule and if that provision may be
                                                  because the Agency views this as a                      www.regulations.gov, your e-mail                      severed from the remainder of the rule,
                                                  noncontroversial submittal and                          address will be automatically captured                EPA may adopt as final those provisions
                                                  anticipates no adverse comments. A                      and included as part of the comment                   of the rule that are not the subject of an
                                                  more detailed description of the State                  that is placed in the public docket and               adverse comment.
                                                  submittal and EPA’s evaluation are                      made available on the Internet. If you
                                                                                                                                                                 Dated: December 14, 2010.
                                                  included in a Technical Support                         submit an electronic comment, EPA
                                                                                                          recommends that you include your                      W.C. Early,
                                                  Document (TSD) prepared in support of                                                                         Acting Regional Administrator, Region III.
                                                  this rulemaking action. A copy of the                   name and other contact information in
                                                                                                          the body of your comment and with any                 [FR Doc. 2010–32489 Filed 12–27–10; 8:45 am]
                                                  TSD is available, upon request, from the
                                                  EPA Regional Office listed in the                       disk or CD–ROM you submit. If EPA                     BILLING CODE 6560–50–P

                                                  ADDRESSES section of this document. If                  cannot read your comment due to
                                                  no adverse comments are received in                     technical difficulties and cannot contact
                                                  response to this action, no further                     you for clarification, EPA may not be
                                                                                                                                                                DEPARTMENT OF HEALTH AND
                                                  activity is contemplated. If EPA receives               able to consider your comment.
                                                                                                                                                                HUMAN SERVICES
                                                  adverse comments, the direct final rule                 Electronic files should avoid the use of
                                                  will be withdrawn and all public                        special characters, any form of                       Office of Inspector General
                                                  comments received will be addressed in                  encryption, and be free of any defects or
                                                  a subsequent final rule based on this                   viruses.                                              42 CFR Part 1001
                                                  proposed rule. EPA will not institute a                    Docket: All documents in the
                                                  second comment period. Any parties                      electronic docket are listed in the                   Solicitation of New Safe Harbors and
                                                  interested in commenting on this action                 http://www.regulations.gov index.                     Special Fraud Alerts
                                                  should do so at this time.                              Although listed in the index, some
                                                                                                                                                                AGENCY:  Office of Inspector General
                                                  DATES: Comments must be received in                     information is not publicly available,
                                                                                                                                                                (OIG), HHS.
                                                  writing by January 27, 2011.                            i.e., CBI or other information whose
                                                                                                          disclosure is restricted by statute.                  ACTION: Notice of intent to develop
                                                  ADDRESSES: Submit your comments,                                                                              regulations.
                                                  identified by Docket ID Number EPA–                     Certain other material, such as
                                                  R03–OAR–2010–0857 by one of the                         copyrighted material, is not placed on                SUMMARY:   In accordance with section
                                                  following methods:                                      the Internet and will be publicly                     205 of the Health Insurance Portability
                                                     A. http://www.regulations.gov. Follow                available only in hard copy form.                     and Accountability Act of 1996
                                                  the on-line instructions for submitting                 Publicly available docket materials are               (HIPAA), this annual notice solicits
                                                  comments.                                               available either electronically in http://            proposals and recommendations for
                                                     B. E-mail: powers.marilyn@epa.gov.                   www.regulations.gov or in hard copy                   developing new and modifying existing
                                                     C. Mail: EPA–R03–OAR–2010–0857,                      during normal business hours at the Air               safe harbor provisions under the Federal
                                                  Marilyn Powers, Acting Associate                        Protection Division, U.S. Environmental               anti-kickback statute (section 1128B(b)
                                                  Director, Office of Air Program                         Protection Agency, Region III, 1650                   of the Social Security Act), as well as
                                                  Planning, Mailcode 3AP30, U.S.                          Arch Street, Philadelphia, Pennsylvania               developing new OIG Special Fraud
                                                  Environmental Protection Agency,                        19103. Copies of the State submittal are              Alerts.
                                                  Region III, 1650 Arch Street,                           available at the Pennsylvania
                                                                                                                                                                DATES:   To assure consideration, public
emcdonald on DSK2BSOYB1PROD with PROPOSALS




                                                  Philadelphia, Pennsylvania 19103.                       Department of Environmental
                                                     D. Hand Delivery: At the previously-                 Protection, Bureau of Air Quality                     comments must be delivered to the
                                                  listed EPA Region III address. Such                     Control, P.O. Box 8468, 400 Market                    address provided below by no later than
                                                  deliveries are only accepted during the                 Street, Harrisburg, Pennsylvania 17105                5 p.m. on February 28, 2011.
                                                  Docket’s normal hours of operation, and                 or the Allegheny County Health                        ADDRESSES: In commenting, please refer
                                                  special arrangements should be made                     Department, Bureau of Environmental                   to file code OIG–118–N. Because of staff
                                                  for deliveries of boxed information.                    Quality, Division of Air Quality, 301                 and resource limitations, we cannot
                                                     Instructions: Direct your comments to                39th Street, Pittsburgh, Pennsylvania                 accept comments by facsimile (FAX)
                                                  Docket ID No. EPA–R03–OAR–2010–                         15201.                                                transmission.


                                             VerDate Mar<15>2010   17:55 Dec 27, 2010   Jkt 223001   PO 00000   Frm 00049   Fmt 4702   Sfmt 4702   E:\FR\FM\28DEP1.SGM   28DEP1
                                                                       Federal Register / Vol. 75, No. 248 / Tuesday, December 28, 2010 / Proposed Rules                                                81557

                                                     You may submit comments in one of                    I. Background                                         are intended for extensive distribution
                                                  three ways (no duplicates, please):                                                                           directly to the health care provider
                                                                                                          A. OIG Safe Harbor Provisions
                                                     1. Electronically. You may submit                                                                          community, as well as to those charged
                                                                                                            Section 1128B(b) of the Social                      with administering the Federal health
                                                  electronic comments on specific                         Security Act (the Act) (42 U.S.C. 1320a–
                                                  recommendations and proposals                                                                                 care programs.
                                                                                                          7b(b)) provides criminal penalties for                  In developing these Special Fraud
                                                  through the Federal eRulemaking Portal                  individuals or entities that knowingly
                                                  at http://www.regulations.gov.                                                                                Alerts, OIG has relied on a number of
                                                                                                          and willfully offer, pay, solicit, or                 sources and has consulted directly with
                                                     2. By regular, express, or overnight                 receive remuneration in order to induce               experts in the subject field, including
                                                  mail. You may send written comments                     or reward business reimbursable under                 those within OIG, other agencies of the
                                                  to the following address: Office of                     the Federal health care programs. The                 Department, other Federal and State
                                                  Inspector General, Congressional and                    offense is classified as a felony and is              agencies, and those in the health care
                                                  Regulatory Affairs, Department of                       punishable by fines of up to $25,000                  industry.
                                                  Health and Human Services, Attention:                   and imprisonment for up to 5 years. OIG
                                                  OIG–118–N, Room 5541, Cohen                             may also impose civil money penalties,                C. Section 205 of the Health Insurance
                                                  Building, 330 Independence Avenue,                      in accordance with section 1128A(a)(7)                Portability and Accountability Act of
                                                  SW., Washington, DC 20201. Please                       of the Act (42 U.S.C. 1320a–7a(a)(7)), or             1996
                                                  allow sufficient time for mailed                        exclusion from the Federal health care                   Section 205 of the Health Insurance
                                                  comments to be received before the                      programs, in accordance with section                  Portability and Accountability Act of
                                                  close of the comment period.                            1128(b)(7) of the Act (42 U.S.C. 1320a–               1996 (HIPAA), Public Law 104–191
                                                                                                          7(b)(7)).                                             § 205, the Act, § 1128D, 42 U.S.C.
                                                     3. By hand or courier. If you prefer,                  Since the statute on its face is so
                                                  you may deliver, by hand or courier,                                                                          1320a–7d, requires the Department to
                                                                                                          broad, concern has been expressed for                 develop and publish an annual notice in
                                                  your written comments before the close                  many years that some relatively
                                                  of the comment period to Office of                                                                            the Federal Register formally soliciting
                                                                                                          innocuous commercial arrangements                     proposals for modifying existing safe
                                                  Inspector General, Department of Health                 may be subject to criminal prosecution
                                                  and Human Services, Cohen Building,                                                                           harbors to the anti-kickback statute and
                                                                                                          or administrative sanction. In response               for developing new safe harbors and
                                                  Room 5541, 330 Independence Avenue,                     to the above concern, section 14 of the
                                                  SW., Washington, DC 20201. Because                                                                            Special Fraud Alerts.
                                                                                                          Medicare and Medicaid Patient and                        In developing safe harbors for a
                                                  access to the interior of the Cohen                     Program Protection Act of 1987, Public
                                                  Building is not readily available to                                                                          criminal statute, OIG is required to
                                                                                                          Law 100–93 § 14, the Act, § 1128B(b), 42              engage in a thorough review of the range
                                                  persons without Federal Government                      U.S.C. 1320a–7b(b), specifically                      of factual circumstances that may fall
                                                  identification, commenters are                          required the development and                          within the proposed safe harbor subject
                                                  encouraged to schedule their delivery                   promulgation of regulations, the so-                  area so as to uncover potential
                                                  with one of our staff members at (202)                  called ‘‘safe harbor’’ provisions,                    opportunities for fraud and abuse. Only
                                                  619–1343.                                               specifying various payment and                        then can OIG determine, in consultation
                                                     For information on viewing public                    business practices which, although                    with the Department of Justice, whether
                                                  comments, please see the                                potentially capable of inducing referrals             it can effectively develop regulatory
                                                  SUPPLEMENTARY INFORMATION section.                      of business reimbursable under the                    limitations and controls that will permit
                                                                                                          Federal health care programs, would not               beneficial and innocuous arrangements
                                                  FOR FURTHER INFORMATION CONTACT:                        be treated as criminal offenses under the
                                                  Patrice Drew, Regulatory Officer, Office                                                                      within a subject area while, at the same
                                                                                                          anti-kickback statute and would not                   time, protecting the Federal health care
                                                  of Inspector General, (202) 619–1368.                   serve as a basis for administrative                   programs and their beneficiaries from
                                                  SUPPLEMENTARY INFORMATION:                              sanctions. OIG safe harbor provisions                 abusive practices.
                                                  Submitting Comments: We welcome                         have been developed ‘‘to limit the reach
                                                  comments from the public on                             of the statute somewhat by permitting                 II. Solicitation of Additional New
                                                  recommendations for developing new or                   certain non-abusive arrangements, while               Recommendations and Proposals
                                                  revised safe harbors and Special Fraud                  encouraging beneficial and innocuous                    In accordance with the requirements
                                                  Alerts. Please assist us by referencing                 arrangements’’ (56 FR 35952, July 29,                 of section 205 of HIPAA, OIG last
                                                  the file code OIG–118–N.                                1991). Health care providers and others               published a Federal Register
                                                                                                          may voluntarily seek to comply with                   solicitation notice for developing new
                                                     Inspection of Public Comments: All                   these provisions so that they have the
                                                  comments received before the end of the                                                                       safe harbors and Special Fraud Alerts on
                                                                                                          assurance that their business practices               December 29, 2009 (74 FR 68762). As
                                                  comment period are available for                        will not be subject to liability under the
                                                  viewing by the public. All comments                                                                           required under section 205, a status
                                                                                                          anti-kickback statute or related                      report of the public comments received
                                                  will be posted on http://                               administrative authorities. The OIG safe
                                                  www.regulations.gov as soon as possible                                                                       in response to that notice is set forth in
                                                                                                          harbor regulations are found at 42 CFR                an appendix to the OIG’s Semiannual
                                                  after they have been received.                          1001.                                                 Report to Congress covering the period
                                                  Comments received timely will also be
                                                                                                          B. OIG Special Fraud Alerts                           April 1, 2010, through September 30,
                                                  available for public inspection as they
                                                                                                                                                                2010.1 OIG is not seeking additional
emcdonald on DSK2BSOYB1PROD with PROPOSALS




                                                  are received at Office of Inspector                       OIG has also periodically issued
                                                                                                                                                                public comment on the proposals listed
                                                  General, Department of Health and                       Special Fraud Alerts to give continuing
                                                                                                                                                                in Appendix D at this time. Rather, this
                                                  Human Services, Cohen Building, 330                     guidance to health care providers with
                                                                                                                                                                notice seeks additional
                                                  Independence Avenue, SW.,                               respect to practices OIG finds
                                                                                                                                                                recommendations regarding the
                                                  Washington, DC 20201, Monday                            potentially fraudulent or abusive. The
                                                                                                                                                                development of proposed or modified
                                                  through Friday from 9:30 a.m. to 5 p.m.                 Special Fraud Alerts encourage industry
                                                  To schedule an appointment to view                      compliance by giving providers                          1 The OIG Semiannual Report to Congress can be
                                                  public comments, phone (202) 619–                       guidance that can be applied to their                 accessed through the OIG Web site at http://
                                                  1368.                                                   own practices. OIG Special Fraud Alerts               oig.hhs.gov/publications/semiannual.asp.



                                             VerDate Mar<15>2010   17:55 Dec 27, 2010   Jkt 223001   PO 00000   Frm 00050   Fmt 4702   Sfmt 4702   E:\FR\FM\28DEP1.SGM   28DEP1
                                                  81558                Federal Register / Vol. 75, No. 248 / Tuesday, December 28, 2010 / Proposed Rules

                                                  safe harbor regulations and new Special                 FEDERAL COMMUNICATIONS                                documents, sign language interpreters,
                                                  Fraud Alerts beyond those summarized                    COMMISSION                                            CART, etc.) by e-mail: FCC504@fcc.gov
                                                  in an appendix to the OIG Semiannual                                                                          or phone: 202–418–0530 or TTY: 202–
                                                  Report referenced above.                                47 CFR Part 5                                         418–0432.
                                                                                                          [ET Docket No. 10–237; FCC 10–198]                       For detailed instructions for
                                                  A. Criteria for Modifying and                                                                                 submitting comments and additional
                                                  Establishing Safe Harbor Provisions                                                                           information on the rulemaking process,
                                                                                                          Promoting More Efficient Use of
                                                    In accordance with section 205 of                     Spectrum Through Dynamic Spectrum                     see the SUPPLEMENTARY INFORMATION of
                                                  HIPAA, we will consider a number of                     Use Technologies                                      this document.
                                                  factors in reviewing proposals for new                                                                        SUPPLEMENTARY INFORMATION: This is a
                                                                                                          AGENCY:  Federal Communications
                                                  or modified safe harbor provisions, such                                                                      summary of the Commission’s Notice of
                                                                                                          Commission.
                                                  as the extent to which the proposals                                                                          Inquiry, ET Docket No. 10–237, FCC 10–
                                                                                                          ACTION: Proposed rule.                                198, adopted and released on November
                                                  would affect an increase or decrease in:
                                                                                                                                                                30, 2010. The full text of this document
                                                    • Access to health care services,                     SUMMARY:    In this document, the
                                                                                                                                                                is available for inspection and copying
                                                                                                          Commission seeks to promote and
                                                    • The quality of services,                                                                                  during normal business hours in the
                                                                                                          facilitate wireless innovation to ensure
                                                    • Patient freedom of choice among                     that the promise of dynamic spectrum                  FCC Reference Center (Room CY–A257),
                                                  health care providers,                                  access technologies can be fully realized             445 12th Street, SW., Washington, DC
                                                                                                                                                                20554. The complete text of this
                                                    • Competition among health care                       and applied across more of the radio
                                                                                                                                                                document also may be purchased from
                                                  providers,                                              spectrum. A dynamic sharing approach
                                                                                                          would, for example, allow devices to                  the Commission’s copy contractor, Best
                                                    • The cost to Federal health care                                                                           Copy and Printing, Inc., 445 12th Street,
                                                                                                          identify and use slices of spectrum that
                                                  programs,                                                                                                     SW., Room, CY–B402, Washington, DC
                                                                                                          are available in a particular location for
                                                    • The potential overutilization of the                a limited time—from as little as few                  20554. The full text may also be
                                                  health care services, and                               seconds to as much as several days.                   downloaded at: http://www.fcc.gov.
                                                                                                                                                                   Pursuant to §§ 1.415, 1.419, and 1.430
                                                    • The ability of health care facilities               Specifically, the Commission seeks
                                                                                                                                                                of the Commission’s rules, 47 CFR
                                                  to provide services in medically                        comment on the variety of ways in
                                                                                                          which dynamic spectrum access radios                  1.415, 1.419, and 1.430, interested
                                                  underserved areas or to medically                                                                             parties may file comments and reply
                                                  underserved populations.                                and techniques can promote more
                                                                                                          intensive and efficient use of the radio              comments on or before the dates
                                                    In addition, we will also take into                                                                         indicated on the first page of this
                                                                                                          spectrum, and the potential that these
                                                  consideration other factors, including,                 technological innovations have for                    document. Comments may be filed
                                                  for example, the existence (or                          enabling more effective management of                 using: (1) The Commission’s Electronic
                                                  nonexistence) of any potential financial                spectrum.                                             Comment Filing System (ECFS), (2) the
                                                  benefit to health care professionals or                                                                       Federal Government’s eRulemaking
                                                                                                          DATES: Comments must be filed on or                   Portal, or (3) by filing paper copies. See
                                                  providers that may take into account
                                                                                                          before February 28, 2011, and reply                   Electronic Filing of Documents in
                                                  their decisions whether to (1) order a
                                                                                                          comments must be filed on or before                   Rulemaking Proceedings, 63 FR 24121
                                                  health care item or service or (2) arrange
                                                                                                          March 28, 2011.                                       (1998).
                                                  for a referral of health care items or
                                                  services to a particular practitioner or                FOR FURTHER INFORMATION CONTACT:                         • Electronic Filers: Comments may be
                                                  provider.                                               Rodney Small, Office of Engineering                   filed electronically using the Internet by
                                                                                                          and Technology, (202) 418–2452, e-                    accessing the ECFS: http://
                                                  B. Criteria for Developing Special Fraud                mail: Rodney.Small@fcc.gov, TTY (202)                 fjallfoss.fcc.gov/ecfs2/ or the Federal
                                                  Alerts                                                  418–2989.                                             eRulemaking Portal: http://
                                                                                                          ADDRESSES: You may submit comments,                   www.regulations.gov.
                                                    In determining whether to issue
                                                                                                          identified by ET Docket No. 10–237, by                   • Paper Filers: Parties who choose to
                                                  additional Special Fraud Alerts, we will
                                                                                                          any of the following methods:                         file by paper must file an original and
                                                  also consider whether, and to what
                                                                                                             • Federal eRulemaking Portal: http://              four copies of each filing. If more than
                                                  extent, the practices that would be
                                                                                                          www.regulations.gov. Follow the                       one docket or rulemaking number
                                                  identified in a new Special Fraud Alert
                                                                                                          instructions for submitting comments.                 appears in the caption of this
                                                  may result in any of the consequences                      • Federal Communications                           proceeding, filers must submit two
                                                  set forth above, as well as the volume                  Commission’s Web Site: http://                        additional copies for each additional
                                                  and frequency of the conduct that                       www.fcc.gov/cgb/ecfs/. Follow the                     docket or rulemaking number.
                                                  would be identified in the Special Fraud                instructions for submitting comments.                    Filings can be sent by hand or
                                                  Alert.                                                     • E-mail: [Optional: Include the E-                messenger delivery, by commercial
                                                    A detailed explanation of                             mail address only if you plan to accept               overnight courier, or by first-class or
                                                  justifications for, or empirical data                   comments from the general public].                    overnight U.S. Postal Service mail. All
                                                  supporting, a suggestion for a safe                     Include the docket number(s) in the                   filings must be addressed to the
                                                  harbor or Special Fraud Alert would be                  subject line of the message.                          Commission’s Secretary, Office of the
                                                                                                             • Mail: [Optional: Include the mailing
emcdonald on DSK2BSOYB1PROD with PROPOSALS




                                                  helpful and should, if possible, be                                                                           Secretary, Federal Communications
                                                  included in any response to this                        address for paper, disk or CD–ROM                     Commission.
                                                  solicitation.                                           submissions needed/requested by your                     • All hand-delivered or messenger-
                                                    Dated: December 22, 2010.                             Bureau or Office. Do not include the                  delivered paper filings for the
                                                                                                          Office of the Secretary’s mailing address             Commission’s Secretary must be
                                                  Daniel R. Levinson,
                                                                                                          here.]                                                delivered to FCC Headquarters at 445
                                                  Inspector General.                                         • People with Disabilities: Contact the            12th St., SW., Room TW–A325,
                                                  [FR Doc. 2010–32705 Filed 12–27–10; 8:45 am]            FCC to request reasonable                             Washington, DC 20554. The filing hours
                                                  BILLING CODE 4152–01–P                                  accommodations (accessible format                     are 8 a.m. to 7 p.m. All hand deliveries


                                             VerDate Mar<15>2010   17:55 Dec 27, 2010   Jkt 223001   PO 00000   Frm 00051   Fmt 4702   Sfmt 4702   E:\FR\FM\28DEP1.SGM   28DEP1
